                      OFFICE O F THE INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE




                        AUDIT OF CORPORATION FOR
                     NATIONAL AND COMMUNITY SERVICE
                       CONTRACT NO. CNCS-94-002 WITH
                     ENCORE MANAGEMENT CORPORATION

                            OIG Audit Report Number 00-22
                                  February 18,2000




                                          Prepared by:

                                   Cotton & Company LLP
                               333 North Fairfax Street, Suite 401
                                  Alexandria, Virginia 223 14

                                Under Department of State OIG
                            Contract # S-OPRAQ-99-D-0021 -CNS-05




This report was issued to Corporation management on September 21,2000. Under the laws
and regulations governing audit follow up, the Corporation must make final management
decisions on the report's findings and recommendations no later than March 20,2001, and
complete its corrective actions by September 21,2001. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                                                                                     CORPOKATION

                                                                                     FOR NATIONAL




                          Office of the Inspector General
                  Corporation for National and Community Service

                           Audit of Corporation for
         National and Community Sewice Contract No. CNCS-94-002 with
                         Encore Management Company
                        OIG Audit Report Number 00-22


Cotton & Company, LLP, under contract to the Office of the Inspector General, audited
the amounts claimed by Encore Management Company under Contract No. 94-002. The
audit covered the costs claimed during the period from July 25, 1994, through December
31, 1998. The audit of cost-plus-fixed-fee contract included tests to determine whether
costs reported to the Corporation were documented and allowable in accordance with the
terms and conditions of the contract, applicable laws and regulations, including the
Federal Acquisition Regulation, and applicable cost accounting standards. We reviewed
the report and work papers supporting its conclusions and agree with the findings and
recommendations presented.

As a result of their work, auditors questioned a total of $1,102,982 of costs billed to the
Corporation and identified three material instances of noncompliance and three material
internal control weaknesses. At the exit conference held with Encore on May 11, 2000,
attended by the Encore President, the CFO, and Encore's accountant, each finding was
presented to and discussed with Encore senior management in detail. Encore was given
the opportunity to and did ask questions concerning the findings. No new findings or
questioned costs have been included in the report.

The Corporation's response to a draft of this report is included as Appendix A. The
Corporation's response is also summarized in the text of the report, with additional
comments and analysis from the auditors. Encore did not respond to the draft report
within the 30-day comment period.




                                                                                 Inspector General
                                                                                 1201 New York Avenue, NW
                                                                                 Washin~aon,DC 20.52.5
                    OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                        AUDIT REPORT NO. 00-22

                              AUDIT OF
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                    CONTRACT NO. CNCS-94-002 WITH
                  ENCORE MANAGEMENT CORPORATION


                                        CONTENTS

                                                             Page

Transmittal Letter                                             1

Results in Brief                                               1

Independent Auditors' Opinion                                  4

Schedule of Contract Costs                                     6

Indirect Cost Rate Schedules                                  12

Independent Auditors' Report on Compliance                    47

Independent Auditors' Report on Internal Control Structure    50

Appendix A-The       Corporation's Response                   53
                                                                                    C-\TI-IEKINC  L N(KERA C13A
                                                                                     C o ~ t r r kY W I L ~CPA
                                                                                                            ~ ,




                                      February 18,2000


Inspector General
Corporation for National and Community Service


       We audited costs claimed by Encore Management Corporation to the Corporation for
National and Community Service under Contract No. CNCS 94-002 for the period July 25, 1994,
through December 3 1, 1998. This is a cost-plus-fixed-fee contract under which Encore
Management Corporation provided office and clerical support.

        The audit objectives were to determine if: (1) costs claimed were allowable and were
incurred for actual contract effort, adequately supported, and charged in accordance with Encore
Management Corporation's cost accounting system, contract terms, applicable laws and
regulations including the Federal Acquisition Regulation, and applicable cost accounting
standards; (2) Encore Management Corporation complied with contract terms and conditions;
and (3) Encore Management Corporation's accounting system and system of internal accounting
control were adequate for purposes of this contract.

       We conducted the audit in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain reasonable assurance about
whether amounts claimed against the contract, as presented in the Schedule of Contract Costs,
are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting amounts and disclosures in the schedule. An audit also includes assessing accounting
principles used and significant estimates made by the auditee, as well as evaluating overall
financial schedule presentation. We believe our audit provides a reasonable basis for our
opinion.

                                    RESULTS IN BRIEF

Costs Claimed

        Encore Management Corporation billed $9,777,322 under the contract, and we
questioned $1,102,982 (approximately 11 percent). Our opinion on the Schedule of Contract
Costs is qualified as the result of questioned costs.
       As described in the Schedule of Contract Costs, Encore Management Corporation
inappropriately billed the Corporation for:

              $658,213 of temporary labor costs for work performed in labor categories or at
              labor rates not included in the contract or contract modifications.

              $500,398 of indirect costs at provisional rates that exceeded its actual rates. On
              September 9, 1998, in response to issues raised by the Office of the Inspector
              General (OIG), Encore Management Corporation sent a $94,091 payment to the
              contracting officer as partial reimbursement for overbilled indirect costs.

              $32,730 more than the $552,840 fixed fee allowed under the contract.

              $5,732 of direct labor costs not s~lpportedby employee timesheets or at labor rates
              exceeding labor rates paid.

In addition, Encore Management Corporation billed $45,270 of overtime labor costs as direct
labor instead of overtime premium. We reclassified these costs to the overtime premium
category.

       The Schedule of Contract Costs provides additional information on these questioned costs
based on our audit results.

Compliance

       Results of our tests of compliance disclosed three material instances of noncompliance.
Encore Management Corporation:

               Billed costs in excess of contract-specified funding limits for fixed fee, temporary
               help, and total funding.

               Failed to s~lbmitits proposed final indirect cost rates to the contracting officer as
               required by the Federal Acquisition Regulation.

        0      Claimed direct labor, indirect costs, and fee that were unallowable and
               unallocable in accordance with contract terms and conditions and the Federal
               Acquisition Regulation.

 Internal Control

         We noted three matters involving Encore Management Corporation's internal control
 structure and its operations that we consider material weaknesses under standards established by
 the American Institute of Certified Public Accountants. Encore Management Corporation:
Does not have policies and procedures to adequately identify unallowable indirect
expenses in accordance with the Federal Acquisition Regulation.        Thus, its
indirect cost rate proposals contained unallowable indirect expenses.

Does not have adequate timekeeping procedures. Its employees sometimes used
correction fluid to alter timesheets, supervisors did not sign all timesheets, and
employees and supervisors did not initial all changes.

Did not prepare invoices directly from its accounting system. Invoices were
s~~pported
         by Excel spreadsheets and contained errors.


                              COTTON & COMPANY LLP
                         COT                   b

CI-IARLESHAYWARD,CPA, CFE, CISA                                                             CATI-IERINE L. NOCEILA,CPA
~IAWHE\V  H JOHNSON,CPA, CCFht                                                               C o ~ . r mY. WIILSON,
                                                                                                                  CPA




                                               February 18,2000


        Inspector General
        Corporation for National and Community Service


                                  INDEPENDENT AUDITORS' OPINION

               We audited costs claimed by Encore Management Corporation to the Corporation for
        National and Community Service under Contract No. CNCS 94-002 for the period July 25, 1994,
        through December 31, 1998. Costs claimed are summarized in the Schedule of Contract Costs.
        Costs claimed summarized in the schedule are the responsibility of Encore Management
        Corporation management. Our responsibility is to express an opinion on costs shown in the
        schedule based on our audit.

                 We conducted our audit in accordance with generally accepted auditing standards and
         Government Auditing Standards issued by the Comptroller General of the United States. These
         standards req~lirethat we plan and perform the audit to obtain reasonable assurance that the
         financial schedules are free of material misstatement. An audit includes examining, on a test
         basis, evidence supporting amounts and disclosures in the financial schedules. It also includes
         assessing accounting principles used and significant estimates made by management, as well as
         evaluating the overall financial schedule presentation. We believe that our audit provides a
         reasonable basis for our opinion on costs claimed.

                The Schedule of Contract Costs is intended to present allowable costs incurred under the
         contract in accordance with the Federal Acquisition Regulation and contract terms and
         conditions. Therefore, it is not intended to be a complete presentation of Encore Management
         Corporation's revenues and expenses.

                In our opinion, except for questioned costs in the schedule, the Schedule of Contract
         Costs referred to above presents fairly, in all material respects, costs claimed by Encore
         Management Corporation for the audit period July 25, 1994, through December 31, 1998, in
         conformity with the Federal Acquisition Regulation and contract terms and conditions.

                  In accordance with Government Auditing Standards, we have also issued reports dated
          February 18, 2000, on our consideration of Encore Management Corporation's internal control
          structure and on its compliance with laws and regulations.
      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Encore Management Corporation.


                                          COTTON & COMPANY LLP



                                         h i c h a e l W. ~ i l l e s p j wCFE
                                                                            ~,
FINANCIAL SCHEDULES
                                                                  SCHEDULE A

                   SCHEDULE OF CONTRACT COSTS

        Corporation for National and Community Service Contract with
                      Encore Management Corporation

                       CONTRACT NO. CNCS 94-002
                  July 25,1994, through December 31,1998


                                     Claimed        Questioned
                   Pm
                                      Costs
                                      --              Costs -          Notes

Direct Labor
Overhead
Overtime Premium
Other Direct Costs
General & Administrative (G&A)
Indirect Cost Reimbursement
Fee
Temporary Support

Total                              $9.777.322       $1.102,982
                NOTES TO THE SCHEDULE OF CONTRACT COSTS


1.    We questioned $5 1,002 of direct labor costs as follows:

      a.     Encore Management Corporation billed $199 of direct labor costs for three
             employees for hours not supported by timesheets or for unbillable leave time.

             We questioned $199.

      b.     Encore Management Corporation billed $45,270 of overtime labor costs as direct
             labor instead of overtime premium. The invoices included the following
             explanation, "Note: No provisions have been made to increase funding in the
             overtime budget category. As a result, all authorized overtime hours worked have
             been converted to direct labor hours. The calculation used: overtime hours
             multiplied by 1.5 equals direct labor hours." Encore Management Corporation's
             indirect cost allocation structure excludes overtime labor costs from the overhead
             allocation base. Because Encore Management Corporation billed these costs as
             direct labor instead of overtime labor as recorded in its accounting system, the
             provisional overhead rates were incorrectly applied and billed.

              We questioned $45,270 of direct labor costs and reclassified them to the overtime
              premium category.

      c.      Encore Management Corporation billed $5,533 of unallowable labor costs. It
              invoiced labor costs for eleven employees at incorrect labor rates, because the
              Excel spreadsheets used to prepare the invoices contained incorrect labor rates for
              some employees.

              We questioned $5,533 of unallowable labor costs.


 2.    Encore Management Corporation billed overhead costs based on provisional billing rates.
       We applied the overhead rates per audit (Schedules B-2, B-5, B-8, B-11, B-14) to
       overhead base costs per audit and calculated questioned costs as follows:
                                 Overhead       Overhead       Overhead       Overhead
                   Base Costs    Rate Per       Costs Per       Costs           Costs
     Fiscal Year   Per Audit      Audit          Audit         Claimed        Ouestioned




        Total      $5.363.935



3.       Encore Management Corporation billed G&A costs based on provisional billing rates.
         We applied the G&A rates per audit (Schedules B-3, B-6, B-12, B-15) to G&A base costs
         per audit and calculated questioned costs as follows:

                   Base Costs     G&A Rate      G&A Costs      G&A Costs       G&A Costs
     Fiscal Year   Per Audit      Per Audit     Per Audit       Claimed        Questioned




        Total      $7.319.574                    $539.588        $660.287        $120.699



4.        On September 9, 1998, Encore Management Corporation sent a $94,091 payment to the
          contracting officer as partial reimbursement for overbilled indirect costs.
5.   Encore Management Corporation billed $585,570 of fixed fee. Contract Modification
     No. 56 limited the fixed fee to $552,840. Encore Management Corporation's chief
     financial officer (CFO) stated that the firm was aware that billings exceeded the contract
     ceiling, and that they discussed this matter with the contracting officer. The CFO also
     stated that Contract Modification No. 47 indicates that "the Estimated Cost and Fixed Fee
     require slight upward adjustments to accurately reflect changes made in Modifications 5,
     15, 16, 19,20, and 23."

     We questioned the $32,730 of fixed fee billed in excess of the contract ceiling.


6.   Encore Management Corporation billed labor categories and rates not allowed in the
     contract. Contract Section B.4 specifies labor categories and billing rates allowable under
     the contract for temporary help services. We questioned $658,213 as follows:

     a.      Encore Management Corporation billed $600,920 of temporary support for non-
             overtime hours worked by employees in labor categories not included in the
             contract or contact modifications.

     b.      Encore Management Corporation billed $22,226 of temporary support for non-
             overtime hours worked by employees at rates not included in the contract or
             contract modifications.

     c.      Encore Management Corporation billed $22,424 of temporary support for
             overtime hours worked by employees in labor categories not included in the
             contract or contract modifications.

      d.     Encore Management Corporation billed $12,643 of temporary support for
             overtime hours worked by employees at labor rates not included in the contract or
             contract modifications. Encore Management Corporation billed overtime hours at
             rates equal to 1.5 times the non-overtime rates allowed in the contract. The
             contract did not include overtime rates and did not specify how overtime should
             be billed. Encore Management Corporation's indirect cost allocation structure
             excludes overtime labor costs from the overhead allocation base. Accordingly,
             any billing rates negotiated with Encore Management Corporation for overtime
             hours worked by its employees must exclude overhead costs and thus will be
              substantially less than the rates billed.

      Corporation Comments. The Corporation responded to this finding in an August 31,
      2000, memorandum (Appendix A). The Corporation states:

              The report then goes on to question all costs claimed for these personnel
              even thought the report does not dispute the fact that the government
              received the services claimed and that Encore is due equitable
              compensation under procurement law for the work it performed.
The Corporation further states:

       While the report purports to be an incurred cost audit, and thus sufficient
       to close out the contract, the Corporation will have to perform a significant
       amount of a~tditwork itself to resolve issues in the report.

The Corporation contends that it acknowledged errors made in administering the Encore
Management Corporation contract noted in a previous audit (OIG Audit Report No. 98-
24), and thus the OIG and Cotton & Company, LLP were aware of these issues. The
Corporation concludes that the audit would have been of more value if the auditor would
have worked with Encore Management Corporation and the Corporation to resolve audit
findings rather than questioning all costs. The Corporation requests that the OIG "revisit
the work performed and work with the Encore and the Contracting Officer to resolve
these matters prior to issuing the report."

Auditors' Additional Comments. Government Auditing Standards issued by the
Comptroller General of the United States state that the purpose of a financial-related audit
is to determine if financial information is presented in accordance with established or
stated criteria and if the contractor has adhered to specific financial compliance
requirements. Encore Management Corporation should not have billed the Corporation
for work performed in labor categories or at billing rates not in the contract, and the
Corporation should not have paid for this work.

In accord with Government Auditing Standards, the auditor is not responsible for
determining or recommending billing rates for labor categories not included in the
contract. The contracting officer is responsible for negotiating new and revised labor
rates with the contractor and closing out the contract.

The Corporation's statement that the OIG was aware of the issues before the audit began
is incorrect. OIG Audit Report No. 98-24, dated August 7, 1998, was an audit of the
Corporation's procurement and contracting processes and procedures. Its primary
objectives were to determine if (1) the Corporation had an effective procurement system
in place and (2) the procurement system complied with statutory and regulatory
requirements applicable to the Corporation.

 The audit concluded that the Corporation did not have an effective procurement system
 and did not comply with all applicable statutory and regulatory requirements. It also
 found that the Corporation had inadequate procedures for contractor selection and
 contract award, and inadequate procedures for contract administration, monitoring, and
 oversight.
Concerning Encore Management Corporation, the report noted only that Encore failed to
adjust from indirect cost rates used for interim billing purposes to actual indirect cost
rates and, based on its proposed actual indirect cost rates, was overpaid approximately
$452,000. The prior audit report did not address the labor category and rate issues, and
thus these were not known before the current audit started.
                                                           SCHEDULE B-1


      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
             ENCORE MANAGEMENT CORPORATION
              SCHEDULE OF FRINGE BENEFIT COSTS
         FOR THE FISCAL YEAR ENDED DECEMBER 31,1994


                            Claimed   Questioned     Costs
          Category           Costs      Costs      per Audit   Note

Health and Welfare
Vacation Pay
Sick Pay
Holiday Pay
Payroll Tax
Insurance
Other

Total Fringe Benefit Pool

Fringe Benefit Base
G&A Labor
Overhead Labor
Contract Labor

Total Fringe Benefit Base

Fringe Benefit Rate
                                                                   NOTE TO SCHEDULE B-1


1.   Health and Welfare. Health and Welfare (H&W) costs are fringe benefits payable in
     cash to employees as required by the U.S. Department of Labor Wage Determination law.
     H&W rates were $0.89 and $0.90 per hour from 1994 through 1998. Encore
     Management Corporation paid H&W costs to part-time employees for whom it did not
     provide fringe benefits. It recorded H&W costs in its accounting system as direct
     expenses. Encore Management Corporation prepared indirect cost rate proposals for
     1994, 1995, 1996, and 1997 that classified the H&W costs as direct expenses. In
     September 1998, in response to issues raised by OIG, Encore Management Corporation
     submitted revised indirect cost rate proposals to the Corporation contracting officer that
     reclassified all H&W costs as indirect expenses and included them in the fringe-benefit
     pool. The cover letter indicated that Encore Management Corporation's CFO noted that
     H&W costs were not included in the fringe-benefit pool.

     In its original April 8, 1994, cost proposal for Contract No. CNCS 94-002, and in its
     September 18, 1996, cost proposal to continue the contract, Encore Management
     Corporation noted that it calculated fully-loaded billing rates for temporary support using
     H&W costs as direct expenses. We also noted that Encore Management Corporation
     included H&W costs in fully-loaded billing rates on other Government contracts.

     Encore Management Corporation could not identify all contracts that included H&W
     expenses as a direct expense or the amounts billed under those contracts. Because Encore
     Management Corporation included H&W costs in its proposed rates for Government
     contracts it is recovering those costs in the billing rates as direct costs. Federal
     Acquisition Regulation (FAR) 31.202, Direct Costs, states that all costs specifically
     identified with other final cost objectives of the contractor are direct costs of those cost
     objectives and are not to be charged to the contract directly or indirectly. In addition,
     FAR 3 1.203, Indirect Costs, states that an indirect cost is not to be allocated to a final cost
     objective if other costs incurred for the same purpose in like circumstances have been
     included as a direct cost of that or any other final cost objective. Accordingly, Encore
     Management Corporation has recovered some H&W expenses as a direct part of its fully-
     loaded billing rates, but it cannot also include all H&W expenses in the fringe-benefit
     pool and allocate H&W to all final cost objectives. The CFO indicated that it would be
      easier for Encore Management Corporation to reclassify H&W costs back to direct costs
     than to identify costs already recovered as direct expenses through its fully-loaded billing
     rates.

      Corporation Comments. The Corporation also takes issue with questioned H&W costs,
      which it considers allowable under the FAR. In its August 31, 2000, memorandum
      (Appendix B), it states:

              ...Encore originally claimed the [H&W] costs as Other Direct
              Costs (ODCs). In September 1998, in response to issues raised by
       OIG, Encore reclassified these costs to its fringe benefits
       pool.. ..However, in this report the auditor is questioning the costs'
       inclusion in the fringe benefit pool. Therefore, under the current
       situation, Encore would not be reimbursed for these costs as either
       indirect or direct costs. If the Corporation were to disallow the
       costs based on OIG's audit report its decision would not be
       sustained.

Auditors' Additional Comments.              The Corporation's statement that Encore
Management Corporation originally claimed H&W costs as Other Direct Costs is
misleading. Encore Management Corporation never billed the Corporation for H&W
costs as Other Direct Costs. It did recover H&W costs in its fully-loaded billing rates for
Temporary Support personnel under this contract and other Government contracts.
Accordingly, Encore Management Corporation cannot reclassify H&W costs after the fact
to its fringe benefit pool, because a significant amount of those costs have already been
paid by the Corporation and other government agencies in its fully-loaded billing rates.

During the audit, Encore Management Corporation's CFO was unable to identify the
amount of H&W costs already recovered in the fully-loaded billing rates. She indicated
that Encore Management Corporation might consider trying to recover H&W costs by
billing the Corporation for H&W costs associated with direct labor billed under the cost-
plus-fixed-fee portion of the contract.

Including H&W costs in the fringe benefit pool and in fully-loaded billing rates is
inconsistent, violates the FAR, and would result in a double recovery of costs.
                                                                SCHEDULE B-2


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
                 SCHEDULE OF OVERHEAD COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1994


                                 Claimed   Questioned     Costs
                                  Costs      Costs
                                             -          per
                                                         -  Audit
                                                            -       Notes
                                                                      .
                                                                      -




Salaries
Rent
Materials and Supplies
Bonuses
Travel and Transportation
Telephone
Recruitment
Depreciation
Other Overhead Costs
Applied from Fringe Allocation

Total Overhead Pool

Overhead Base
Contract Labor

Overhead Rate
                                                               NOTES TO SCHEDULE B-2


     Bonuses. Encore Management Corporation paid bonuses to the president and other
     employees. Its Employee Handbook does not, however, identify bonus plans. According
     to the CFO, Encore Management Corporation's president determined bonus recipients
     and amounts. Encore Management Corporation had no documentation available to
     support the basis for bonus payments. FAR 31.205-6(f)(2), Compensation for Personal
     Services, states that bonuses are allowable provided (1) they are paid under an agreement
     entered into in good faith between the contractor and the employee before services are
     rendered or pursuant to an established plan or policy followed so consistently as to imply
     an agreement to make such payment, and (2) the basis for the award is supported. In
      1994, overhead costs included $2,047 in bonuses paid to employees. We questioned
     these unsupported costs.


     Other Overhead Costs. Encore Management Corporation's business development
     expense account includes unallowable costs, such as personal travel expenses, local
     meals, flowers, and other expenditures for which the business purpose was not
     documented. FAR 31.201-6, Accounting for Unallowable Costs, states that unallowable
     costs must be identified and excluded from any proposal applicable to , a Government
     contract. FAR 31.205-38, Selling Costs, identifies allowable and unallowable types of
     selling costs. Further, FAR 31.205-14, Entertainment, says that costs for amusement,
     diversions, and social activities are unallowable. It also states that membership costs for
     social or dining clubs are unallowable. In 1994, overhead costs included hotel and gift-
     shop charges in Williamsburg, Virginia, of $179 and $108 respectively, and $23 meal
     costs in Washington, DC. According to Encore Management Corporation's CFO, the trip
     to Williamsburg was a personal trip by Encore Management Corporation's president, and
     the purpose of the meal was not documented. We questioned these costs.


3.    Applied from Fringe Allocation. We calculated fringe-benefit costs per audit by
      multiplying the fringe-benefit rate per audit (Schedule B-1) by overhead salaries and
      contract labor costs. We questioned the difference between costs per audit and claimed
      costs.
                                                                   SCHEDULE B-3


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
        SCHEDULE OF GENERAL AND ADMINISTRATIVE COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1994


                                 Claimed      Questioned     Costs
          Category                Costs-        Costs      per Audit   Notes

Salaries
Rent
Materials and Supplies
Bonuses
Travel and Transportation
Telephone
Consultants
Professional Fees
Equipment Rental
Bank Charges
Legal and Accounting
State Income Taxes
Taxes (Other)
Other Overhead Costs
Applied from Fringe Allocation

Total G&A Pool                   $ 174.680

G&A Base
Contract Labor                   $1,583,516
Overtime Premium                     40,386
Health and Welfare
Materials and Supplies               3,067
Travel                               1,937
Reproduction                         1,544
Courier                              1,846
Overhead                           494,46 1

 Total G&A Expense Base          $2.126.757

 G&A Rate                              W/o
                                                               NOTES TO SCHEDULE B-3


1.    Bonuses. In 1994, G&A costs included bonuses of $900 paid to Encore Management
      Corporation employees and $10,000 to its president. Encore Management Corporation
      had no documentation available to support the basis for bonus payments. We questioned
      these unsupported costs for the reasons stated in Schedule B-2, Note 1 (page 16).


      Travel and Transportation. Encore Management Corporation included the total cost of
      various Mercedes Benz automobiles leased by Encore Management Corporation in the
      G&A pool. Encore Management Corporation's president used the automobiles for
      business and personal reasons, but did not, however, maintain records documenting
      personal and business usage. According to Encore Management Corporation's CFO, the
      value of the personal usage was not reported as personal income to the Internal Revenue
      Service by Encore Management Corporation's president. In response to inquires by other
      Government auditors, Encore Management Corporation's president prepared a
      memorandum dated August 13, 1999, estimating personal and business miles driven in
      1997 and 1998, but had no support for the estimate. FAR 31.205-6(m)(2), Compensation
      for Personal Services, states that the personal-use portion of the cost of company-
      furnished automobiles (including transportation to and from work) is unallowable. FAR
      3 1.205-46(f), Travel Costs, states that costs of contractor-leased automobiles are
      allowable if reasonable to the extent that the automobiles are used for company business.
      Encore Management Corporation did not maintain records supporting personal or
      business vehicle use. Accordingly we questioned all claimed costs.

      In addition, Encore Management Corporation's own unsupported estimate of business
      and personal miles shows total costs to operate the president's vehicles as $3.65 and
      $3.11 per mile in 1997 and 1998, respectively. These costs are unreasonable in
      accordance with FAR 31.205-46(f), Travel Costs. In the event any amount is allowed
      during the Corporation's audit resolution process, we recommend that costs per mile be
      limited to the mileage rate ceiling in the Federal Travel Regulation (FTR). Based on
      FTR rates multiplied by Encore Management Corporation's estimated business miles of
      4,148.5 and 4,225.5 in 1997 and 1998, respectively, maximum allowable costs would
      have been $1,286 and $1,373 in 1997 and 1998, respectively. Encore Management
       Corporation claimed automobile lease and operating costs of $22,630 in 1997 and
       $19,281 in 1998.


 3.    Consultants. Encore Management Corporation was unable to locate an agreement
       detailing the scope of services provided by a consultant. FAR 3 1.205-33(f), Professional
       and Consultant Service Costs, states that fees for services are allowable only when
       supported by evidence of the nature and scope of the service furnished. We questioned
       $1,000 of unsupported consultant costs.
4.   Other Overhead Costs. Encore Management Corporation's business development
     expense account includes unallowable costs, such as personal travel expenses, local
     meals, flowers, and other expenditures for which the business purpose was not
     documented. We questioned $617 of business development costs for the reasons stated in
     Schedule B-2, Note 2 (page 16).


5.   Applied from F r i n ~ eAllocation. We calculated fringe-benefit costs per audit by
     multiplying the fringe-benefit rate per audit (Schedule B-1, page 12) by G&A salaries.
     We questioned the difference between costs per audit and claimed costs.


6.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We included H&W costs in
     the allocation base for the reasons stated in Schedule B-1, Note 1 (page 13).


7.   Overhead. We questioned the difference in the overhead pool between fringe-benefit
     costs per audit and claimed costs for the reasons stated in Schedule B-2, Note 3 (page 16).
                                                              SCHEDULE B-4


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
               SCHEDULE OF FRINGE BENEFIT COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1995


                               Claimed   Questioned     Costs
           Category             Costs      Costs      per Audit   Note

Health and Welfare
Vacation Pay
Sick Leave
Holiday Pay
MaternityjMilitaryIJury Duty
Payroll Tax
Insurance
Other

 Total Fringe Benefit Pool

Fringe Benefit Base
G&A Labor
Overhead Labor
Contract Labor

Total Fringe Benefit Base

Fringe Benefit Rate
                                                              NOTE TO SCHEDULE B-4


1.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We questioned all claimed
     costs for the reasons stated in Schedule B-1, Note 1 (page 13).
                                                                      SCHEDULE B-5


          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                 ENCORE MANAGEMENT CORPORATION
                   SCHEDULE OF OVERHEAD COSTS
             FOR THE FISCAL YEAR ENDED DECEMBER 31,1995


                                   Claimed       Questioned     Costs
-
-
              Category              Costs
                                      --           Costs      per Audit     Notes

Salaries
Rent
Materials and Supplies
Professional and Consultants Fee
Travel and Transportation
Telephone
Depreciation
Other Overhead Costs
Applied from Fringe Allocation

    Total Overhead Pool            $1,189.950     $188.772    $1.001.178

    Overhead Base
    Contract Labor                 $3.634.094                 $3,634.094

    Overhead Rate                       32.74%                     27.55%
                                                               NOTES TO SCHEDULE B-5


1.   Salaries. In 1995, overhead costs included bonuses of $1,075. Encore Management
     Corporation had no documentation available to support the basis for bonus payments.
     We questioned these unsupported costs for the reasons stated in Schedule B-2, Note 1
     (page 16) -


     Travel and Transportation. Indirect costs include unallowable personal travel, direct
     travel, and unsupported costs. Encore Management Corporation's CFO stated that
     Encore Management Corporation did not require employees to complete expense
     vouchers for indirect travel, and, thus, documentation to support trip purposes was not
     available. In addition, due to budget restraints, Encore Management Corporation could
     not bill travel costs directly to the contract and charged the costs instead to overhead.
     FAR 3 1.205-46(a)(7), Travel Costs, states that travel costs are allowable if the following
     is documented: date and location where expense was incurred, trip purpose, and
     traveler's name. FAR 31.205-46(c), Travel Costs, states that travel costs directly
     attributable to specific contract performance are allowable as direct contract costs. FAR
     31.205-46(a)(1), Travel Costs, states that costs incurred by contractor personnel on
     official company business are allowable, subject to the limitations in this subsection.
      Overhead costs in 1995 included $276 of personal travel and $721 of undocumented
     travel. We questioned the $997 total.


3.   Other Overhead Costs. Encore Management Corporation's dues and subscriptions
     account included unallowable costs for the City Club, a social and dining club in
     Washington, DC. FAR 3 1.205-14, Entertainment Costs, says that amusement, diversion,
     and social activity costs and social and dining club membership costs are unallowable.
     We questioned $728.


4.   Applied from F r i n ~ eAllocation. We calculated fringe-benefit costs per audit by
     multiplying the fringe-benefit rate per audit (Schedule B-4, page 20) by overhead salaries
     and contract labor costs. We questioned the difference between costs per audit and
     claimed costs.
                                                                    SCHEDULE B-6


        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               ENCORE MANAGEMENT CORPORATION
         SCHEDULE OF GENERAL AND ADMINISTRATIVE COSTS
           FOR THE FISCAL YEAR ENDED DECEMBER 31,1995

--


                                 Claimed       Questioned     Costs
            Category-             Costs          Costs      per Audit   Notes-

Salaries                         $ 147,464
Rent                                 8,061
Materials and Supplies               9,444
Travel and Transportation           12,557
Equipment Rental                     4,835
Legal and Accounting                30,824
Other Overhead Costs                10,556
State Income Taxes                  51,315
Applied from Fringe Allocation      34,993

Total G&A Pool                   $ 310.049      $ 21.822    $ 288.227

 G&A Base
 Contract Labor
 Subcontractors
 Overtime Premium
 Health and Welfare
 Materials and Supplies
 Travel
 Reproduction
 Courier
 Overhead

 Total G&A Expense Base          $5,209.809      $ (6.815) $5.216.624

 G&A Rate                              5.95%
                                                              NOTES TO SCHEDULE B-6


1.   Travel and Transportation. Encore Management Corporation did not maintain records
     documenting business and personal usage of leased automobiles. We questioned $12,155
     of automobile expenses for the reasons stated in Schedule B-3, Note 2 (page 18).


2.   Legal and Accounting;. Encore Management Corporation was unable to provide a copy
     of an invoice or agreement for legal services provided by a consultant. FAR 31.205-
     33(f), Professional and Consultant Service Costs, states that fees for services are
     allowable only when supported by evidence of the nature and scope of the service
     furnished. We questioned $600 of unsupported costs.


3.   Other Overhead Costs. We questioned $1,900 as follows:

     a.     Encore Management Corporation did not maintain records documenting business
            and personal usage of leased automobiles. We questioned $1,245 of automobile
            expenses for the reasons stated in Schedule B-3, Note 2 (page 18).

     b.     Encore Management Corporation's business development expense account
            includes unallowable costs, such as personal travel expenses, local meals, flowers,
            and other expenditures for which the business purpose was not documented. We
            questioned $655 of business development costs for the reasons stated in Schedule
            B-2, Note 2 (page 16).


4.   Applied from Fringe Allocation. We calculated hnge-benefit costs per audit by
     multiplying the fringe-benefit rate per audit (Schedule B-4, page 20) by G&A salaries.
     We questioned the difference between costs per audit and claimed costs.


5.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We included H&W costs in
     the allocation base for the reasons stated in Schedule B-1, Note 1 (page 13).


6.   Overhead. We questioned the difference in the overhead pool between fringe-benefit
     costs per audit and claimed costs for the reasons stated in Schedule B-5, Note 4 (page 23).
                                                            SCHEDULE B-7


      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
             ENCORE MANAGEMENT CORPORATION
              SCHEDULE OF FRINGE BENEFIT COSTS
         FOR THE FISCAL YEAR ENDED DECEMBER 31,1996


                             Claimed   Questioned     Costs
          Category            Costs      Costs      per Audit   Note

Health and Welfare
Vacation Pay
Sick Pay
Holiday Pay
Payroll Tax
Insurance
Other

Total Fringe Benefit Pool

Fringe Benefit Base
G&A Labor
Bid & Proposal (B&P) Labor
Overhead Labor
Contract Labor

Total Fringe Benefit Base

Fringe Benefit Rate
                                                              NOTE TO SCHEDULE B-7


1.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We questioned all claimed
     costs for the reasons stated in Schedule B-1, Note 1 (page 13).
                                                                      SCHEDULE B-8


        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               ENCORE MANAGEMENT CORPORATION
                  SCHEDULE OF OVERHEAD COSTS
           FOR THE FISCAL YEAR ENDED DECEMBER 31,1996


                                   Claimed       Questioned     Costs
           Category                 Costs
                                        .-         Costs      per Audit    Notes

Salaries                           $
Rent
Materials and Supplies
Professional and Consultants Fee
Travel and Transportation
Telephone
Depreciation
Equipment Rental
Other Overhead Costs
Applied from Fringe Allocation     -

Total Overhead Pool                $1.144,649     $15 1J28    $ 992.921

Overhead Base
Contract Labor
B&P Labor

Total Overhead Base                $2,937.161                 $2.937.161

Overhead Rate                           38.97%                    33.81%
                                                               NOTES TO SCHEDULE B-8


1.   Salaries. In 1996, overhead costs included bonuses of $2,000 paid to Encore
     Management Corporation employees and $5,000 to its president. Encore Management
     Corporation had no documentation available to support the basis for bonus payments. We
     questioned these ~lnsupportedcosts for the reasons stated in Schedule B-2, Note 1 (page
     16).


2.   Professional & Consultants Fee. Claimed costs included costs for employee
     background investigations that were billed directly to the Corporation on Voucher No.
     9602519. FAR 31.202, Direct Costs, states that costs identified specifically with a
     contract are direct costs of the contract. We questioned $506.


3.   Other Overhead Costs. Encore Management Corporation's dues and subscriptions
     account included unallowable costs for the City Club, a social and dining club in
     Washington, DC. We questioned $114 of dues and subscription costs for the reasons
     stated in Schedule B-5, Note 3 (page 23).


4.   Applied from Fringe Allocation. We calculated fringe benefit costs per audit by
     multiplying the fringe benefit rate per audit (Schedule B-7, page 26) by overhead salaries,
     bid and proposal labor, and contract labor costs. We questioned the difference between
     the costs per audit and claimed costs.
                                                            SCHEDULE B-9


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
        SCHEDULE OF GENERAL AND ADMINISTRATIVE COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1996

                                             -   --   pp




                                 Claimed   Questioned Costs
           Category               Costs      Costs -per Audit   Notes
                                                                   --

Salaries
Rent
Materials and Supplies
Professional Fees
Travel and Transportation
Telephone
Equipment Rental
Legal and Accounting
State Income Taxes
Other Overhead Costs
Applied from Fringe Allocation
B&P Labor
B&P Fringe Allocation
B&P Overhead Allocation

Total G&A Pool

G&A Base
Contract Labor
Subcontractors
Overtime Premium
Health and Welfare
Materials and Supplies
Courier
Overhead
B&P Overhead Allocation

Total G&A Expense Base

G&A Rate
                                                               NOTES TO SCHEDULE B-9


1.    Salaries. In 1996, G&A costs included bonuses of $3,000 paid to Encore Management
      Corporation employees and $30,000 to its president. Encore Management Corporation
      had no documentation available to support the basis for bonus payments. We questioned
      these unsupported costs for the reasons stated in Schedule B-2, Note 1 (page 16).


2.    Travel and Transportation. We questioned $19,930 as follows:

      a.     Encore Management Corporation did not maintain records documenting business
             and personal usage of leased automobiles. We questioned $16,387 of automobile
             expenses for the reasons stated in Schedule B-3, Note 2 (page 18).

      b.     Travel costs included $1,698 of personal travel costs associated with a trip to Las
             Vegas, Nevada, by Encore Management Corporation's president and executive
             vice-president and $1,845 of travel costs without documentation to support the
             trip purpose. We questioned $3,543 of travel costs for the reasons stated in
             Schedule B-5, Note 2 (page 23).


3.    Other Overhead Costs. We q~lestioned$2,095 as follows:

      a.     Encore Management Corporation's business development expense account
             includes unallowable costs, such as personal travel expenses, local meals, flowers,
             and other expenditures for which the business purpose was not documented. We
             questioned $893 of business development costs for the reasons stated in Schedule
             B-2, Note 2 (page 16).

      b.     Encore Management Corporation's G&A pool includes unallocable costs in the
             amount of $1,202 for fees charged by credit card companies for payments made to
             Encore Management Corporation with a credit card. These fees are direct costs of
             specific contracts and do not benefit the Corporation contract. FAR 31.201-4,
             Determining Allocability, states that a cost is allocable if it is assignable or
             chargeable to one or more cost objectives on the basis of relative benefits
             received. FAR 31.203, Indirect Costs, states an indirect cost is any cost not
             directly identified with a single final cost objective. According to Encore
             Management Corporation's CFO, Encore Management Corporation considers
             these types of charges to be indirect costs.


 4.    Applied from Friwe Allocation. We calculated fringe-benefit costs per audit by
       multiplying the fringe-benefit rate per audit (Schedule B-7, page 26) by G&A salaries.
       We questioned the difference between costs per audit and claimed costs.
5.   B&P Fringe Allocation. Encore Management Corporation incorrectly applied the
     fringe-benefit rate to B&P labor costs. All fringe-benefit costs associated with B&P labor
     costs are included in Encore Management Corporation's overhead rate (Schedule B-8,
     page 28). We questioned these costs.


6.   B&P Overhead Allocation. We calculated overhead costs per audit by multiplying the
     overhead rate per audit (Schedule B-8, page 28) by B&P labor. We questioned the
     difference between costs per audit and claimed costs.


7.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We included H&W costs in
     the allocation base for the reasons stated in Schedule B-1 ,Note 1 (page 13).


8.   Overhead. We questioned the difference in the overhead pool between fringe-benefit
     costs per audit and claimed costs and unallocable direct costs for the reasons stated in
     Schedule B-8, Notes 2 and 4 (page 29).
                                                           SCHEDULE B-10


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
               SCHEDULE OF FRINGE BENEFIT COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1997

-               -


                              Claimed   Questioned     Costs
          Category             Costs      Costs         Audit
                                                     per--      Note

Health and Welfare
Vacation Leave
Sick Pay
Holiday Pay
MatemityIMilitarylJury Duty
Payroll Tax
Insurance
Other

Total Fringe Benefit Pool

Fringe Benefit Base
G&A Labor
B&P Labor
Overhead Labor
Contract Labor

Total Fringe Benefit Base

Fringe Benefit Rate
                                                            NOTE TO SCHEDULE B-10


1.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fiinge-
     benefit pool and allocate H&W to all final cost objectives. We questioned all claimed
     costs for the reasons stated in Schedule B-1, Note 1 (page 13).
                                                               SCHEDULE B-11


        CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               ENCORE MANAGEMENT CORPORATION
                 SCHEDULE OF OVERHEAD COSTS
           FOR THE FISCAL YEAR ENDED DECEMBER 31,1997


                                   Claimed  Questioned     Costs
                 Category           Costs -   Costs      per Audit   Notes

Salaries
Rent
Materials and Supplies
Professional and Consultants Fee
Travel and Transportation
Telephone
Depreciation
Equipment Rental
Other Overhead Costs
Applied from Fringe Allocation

Total Overhead Pool

Overhead Base
Contract Labor
B&P Labor

Total Overhead Base

Overhead Rate
                                                            NOTES TO SCHEDULE B-11


1.   Travel and Transportation. We questioned $1,803 of travel costs directly associated
     with a contract for the reasons stated in Schedule B-5, Note 2 (page 23).


2.   Applied from Frinpe Allocation. We calculated fnnge-benefit costs per audit by
     multiplying the fringe-benefit rate per audit (Schedule B-10, page 33) by overhead
     salaries, B&P, and contract labor costs. We questioned the difference between costs per
     audit and claimed costs.
                                                                  SCHEDULE B-12


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
        SCHEDULE OF GENERAL AND ADMINISTRATIVE COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1997


                                 Claimed      Questioned         Costs
-         Category
          .-.                     Costs        Costs       -p e y-Audit
                                                                    -- Notes

Salaries
Rent
Materials and Supplies
Consultants
Travel and Transportation
Telephone
Equipment Rental
Legal and Accounting
State Income Taxes
Other Overhead Costs
Applied from Fringe Allocation
B&P Labor
B&P Fringe Allocation
B&P Overhead Allocation

Total G&A Pool                   $ 446,114     $ 60!773    $ 385,341

G&A Base
Contract Labor
Subcontractors
Overtime Premium
Health and Welfare
Materials and Supplies
Other
Overhead
B&P Overhead Allocation

Total G&A Expense Base

 G&A Rate                             8.24%                     7.10%
                                                        NOTES TO SCHEDULE B-12


Salaries. In 1997, G&A costs included bonuses of $3,500 paid to Encore Management
Corporation employees and $10,000 to its president. Encore Management Corporation
had no documentation available to support the basis for bonus payments. We questioned
these unsupported costs for the reasons stated in Schedule B-2, Note 1 (page 16).


Travel and Transportation. Encore Management Corporation did not maintain records
documenting business and personal usage of leased automobiles. We questioned $22,630
of automobile expenses for the reasons stated in Schedule B-3, Note 2 (page 18).


Legal & Accounting;. Claimed costs included $6,489 for legal services related to a bid
protest filed against the Federal Government. FAR 31.205-47(f)(8), Costs Related to
Legal and Other Proceedings, states that bid protest costs are unallowable. We
questioned these costs.


Other Overhead Costs. We questioned $1,336 as follows:

a.     Encore Management Corporation's business development expense account
       includes unallowable costs, such as personal travel expenses, local meals, flowers,
       and other expenditures for which the business purpose was not documented. We
       questioned $1,018 of business development costs for the reasons stated in
       Schedule B-2, Note 2 (page 16).

b.      Encore Management Corporation's G&A pool includes unallocable costs for fees
        charged by credit card companies for payments made to Encore Management
        Corporation with a credit card. These fees are direct costs of specific contracts
        and do not benefit the Corporation contract. We questioned $318 of credit card
        fees for the reasons stated in Schedule B-9, Note 3 (page 3 1).


Applied from Fringe Allocation. We calculated fringe-benefit costs per audit by
multiplying the fringe-benefit rate per audit (Schedule B-10, page 33) by G&A salaries.
We questioned the difference between costs per audit and claimed costs.


 B&P Fringe Allocation. Encore Management Corporation incorrectly applied the
 fringe-benefit rate to B&P labor costs. All fringe-benefit costs associated with B&P labor
 costs are included in Encore Management Corporation's overhead rate (Schedule B-1 1,
 page 35). We questioned these costs.
7.   B&P Overhead Allocation. We calculated overhead costs per audit by multiplying the
     overhead rate per audit (Schedule B-11, page 35) by B&P labor. We questioned the
     difference between costs per audit and claimed costs.


8.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We included H&W costs in
     the allocation base for the reasons stated in Schedule B-1, Note I (page 13).


9.   Overhead. We questioned the difference in the overhead pool between fringe-benefit
     costs per audit and claimed costs for the reasons stated in Schedule B-11, Note 2 (page
     36).
                                                                      SCHEDULE B-13


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
               SCHEDULE OF FRINGE BENEFIT COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1998


                                    Claimed      Questioned     Costs
           Categop                   Costs         Costs      per Audit     Note

Health and Welfare              $
Vacation Pay
Sick Pay
Holiday Pay
Military/Jury/Maternity Leave
Payroll Taxes
Insurance
Other                           -


Total Fringe Benefit Pool       $1.279.685        $177.833    $1.101.852

Fringe Benefit Base
G&A Labor                       $ 288,532
B&P Labor                              41,650
Overhead Labor                        158,991
Contract Labor                      4,072,139

Total Fringe Benefit Base       $4.561.312                    $4,561.312

Fringe Benefit Rate                     28.06%                     24.16%
                                                            NOTE TO SCHEDULE B-13


1.   Health and Welfare. Encore Management Corporation included H&W costs in its
     proposed labor rates for some Government contracts and, in effect, recovered H&W costs
     as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
     benefit pool and allocate H&W to all final cost objectives. We questioned all claimed
     costs for the reasons stated in Schedule B-1, Note 1 (page 13).
                                                                    SCHEDULE B-14


       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              ENCORE MANAGEMENT CORPORATION
                 SCHEDULE OF OVERHEAD COSTS
          FOR THE FISCAL YEAR ENDED DECEMBER 31,1998


                                  Claimed       Questioned     Costs
        -.   Category              Costs
                                      - .-        Costs      uer Audit   Note

Salaries                         $ 158,991
Rent                                 62,149
Materials and Supplies                8,8 12
Professional and Consultants Fee      7,812
Telephone                            26,413
Depreciation                         12,594
Equipment Rental                     13,105
Other Overhead Costs                  1,664
Fringe Allocation                 1,187,052      $154,748

Total Overhead Pool              $1.478.592      $154.748

Overhead Base
Contract Labor
B&P Labor

Total Overhead Base              $4.1 13.789

Overhead Rate                          35.94%
                                                            NOTE TO SCHEDULE B-14


1.   Fringe Allocation. We calculated fringe-benefit costs per audit by multiplying the
     fringe-benefit rate per audit (Schedule B-13, page 40) by overhead salaries, B&P, and
     contract labor costs. We questioned the difference between costs per audit and claimed
     costs.
                                                         SCHEDULE B-15

            CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                   ENCORE MANAGEMENT CORPORATION
             SCHEDULE OF GENERAL AND ADMINISTRATIVE COSTS
               FOR THE FISCAL YEAR ENDED DECEMBER 31,1998


                            Claimed   Questioned     Costs
        Category             Costs      Costs      per Audit   Notes

Salaries
Rent
Materials and Supplies
Professional Fees
Travel and Transportation
Telephone
Equipment Rental
Legal and Accounting
Insurance
State Income Taxes
Other Overhead Costs
G&A Fringe Allocation
B&P Labor
B&P Fringe Allocation
B&P Overhead Allocation

Total G&A Pool

G&A Base
Contract Labor
Subcontractors
Overtime Premium
Materials and Supplies
Consultants
Health and Welfare
Travel
Other
Overhead
B&P Overhead Allocation

Total G&A Expense Base

 G&A Rate
                                                             NOTES TO SCHEDULE B-15


1.    Salaries. In 1998, G&A costs included bonuses of $5,000 paid to Encore Management
      Corporation employees. Encore Management Corporation had no documentation
      available to support the basis for bonus payments. We questioned these unsupported
      costs for the reasons stated in Schedule B-2, Note 1 (page 16).


2.    Travel and Transportation. We questioned $20,299 as follows:

      a.     Encore Management Corporation did not maintain records documenting business
             and personal usage of leased automobiles. We questioned $19'28 1 of automobile
             expenses for the reasons stated in Schedule B-3, Note 2 (page 18).

      b.     Travel costs included personal travel expenses incurred by Encore Management
             Corporation's president and travel costs without documentation to support the trip
             purpose. We questioned $1,018 of travel costs for the reasons stated in Schedule
             B-5, Note 2 (page 23).


3.    Legal and Accounting. We questioned $17,862 as follows:

      a.     Claimed costs included $13,587 for legal services related to a bid protest filed
             against the Federal Government. FAR 31.205-47(f)(8), Costs Related to Legal
             and Other Proceedings, states that bid protest costs are unallowable. We
             questioned these costs.

      b.     Claimed costs included $21,378 of legal expenses associated with defense of
             fra~ldproceedings brought by the Federal Government. The proceedings did not
             result in a conviction or finding of liability. FAR 31.205-47(e)(3), Costs Related
             to Legal and Other Proceedings, states that costs in connection with proceedings
             brought by the Federal Government that do not result in a conviction or finding of
             liability may be allowable to the extent that they do not exceed 80 percent of
             otherwise allowable legal costs incurred. We questioned 20 percent of the
             claimed costs, or $4,275.


 4.    Other Overhead Costs. We questioned $8,383 as follows:

       a.     Encore Management Corporation's G&A pool includes unallocable costs for fees
              charged by credit card companies for payments made to Encore Management
              Corporation with a credit card. These fees are direct costs of specific contracts
              and do not benefit the Corporation contract. We questioned $1,712 of credit card
              fees for the reasons stated in Schedule B-9, Note 3 (page 3 1).
     b.     Claimed costs include $6,671 for the industrial funding fee paid to the General
            Services Administration (GSA) for contracts awarded under Encore Management
            Corporation's GSA contract. The industrial hnding fee is based on revenues
            earned on specific contracts. These fees are direct costs of other contracts and do
            not benefit the Corporation contract, which was not procured through GSA. FAR
            31.201-4, Determining Allocability, states that a cost is allocable if it is assignable
            or chargeable to one or more cost objectives on the basis of relative benefits
            received. FAR 31.203, Indirect Costs, states that an indirect cost is any cost not
            directly identified with a single, final cost objective. According to Encore
            Management Corporation's CFO, Encore Management Corporation considers
            these types of charges to be indirect costs. We questioned these costs.


5.   G&A Fringe Allocation. We calculated fringe-benefit costs per audit by multiplying the
     fringe-benefit rate per audit (Schedule B-13, page 40) by G&A salaries. We questioned
     the difference between costs per audit and claimed costs.


6.   B&P Fringe Allocation. Encore Management Corporation incorrectly applied the
     fringe-benefit rate to B&P labor costs. All fnnge-benefit costs associated with B&P labor
     costs are included in Encore Management Corporation's overhead rate (Schedule B-14,
     page 42). We questioned these costs.


7.   B&P Overhead Allocation. We calculated overhead costs per audit by multiplying the
     overhead rate per audit (Schedule B-14, page 42) by B&P labor. We questioned the
     difference between costs per a~tditand claimed costs.


8.    Health and Welfare. Encore Management Corporation included H&W costs in its
      proposed labor rates for some Government contracts and, in effect, recovered H&W costs
      as direct costs. Accordingly, it cannot also include all H&W expenses in the fringe-
      benefit pool and allocate H&W to all final cost objectives. We included H&W costs in
      the allocation base for the reasons stated in Schedule B-1, Note 1 (page 13).


9.    Overhead. We questioned the difference in the overhead pool between fringe-benefit
      costs per audit and claimed costs for the reasons stated in Schedule B-14, Note 1 (page
      43).
INDEPENDENT AUDITORS' REPORTS ON COMPLIANCE
      AND INTERNAL CONTROL STRUCTURE
                      COT                            COMPANY LLP
                                           DAVIDL. COTTON,CPA, CFE, CCFM
CHAKIESHAYWARD,
             CPA, CFE, ClSA                 ~IIC~     W.I A
                                                          CILLFSIYE,
                                                              I ~ L CI'A, CFE                       L. NOCI-KA,
                                                                                            CATHERINE        CPA
MATI-HFWH. ~NSCIN,CPA, CCFM                          ~ HAII.T.Y, CII.4, CCFM
                                            S A N I )A.                                      COLE~TEY WILSON,CPA




                                               February 18,2000



        Inspector General
        Corporation for National and Community Service


                         INDEPENDENT AUDITORS' REPORT ON COMPLIANCE

               We audited costs claimed by Encore Management Corporation to the Corporation for
        National and Community Service under Contract No. CNCS 94-002 for the period July 25, 1994,
        through December 3 1, 1998, and have issued our report thereon dated February 18, 2000. The
        Corporation awarded Contract No. CNCS 94-002 for the period July 25, 1994, to December 31,
        1998.

               We conducted our audit in accordance with generally accepted auditing standards and
        Government Auditing Standards issued by the Comptroller General of the United States. These
        standards require that we plan and perform the audit to obtain reasonable assurance that the
        financial schedules are free of material misstatement.

               Compliance with applicable laws and regulations related to the contract is the
        responsibility of Encore Management Corporation's management. As part of obtaining
        reasonable assurance that costs are free of material misstatements, we performed tests of
        compliance with certain provisions of laws and regulations related to the contract. Our objective
        was not, however, to provide an opinion on overall compliance with such provisions.
        Accordingly, we do not express such an opinion.

                 The results of our tests of compliance regarding claimed costs disclosed three material
         instances of noncompliance that are required to be reported herein under Government Auditing
         Stcrnclnrds.

         1.      Encore Management Corporation billed in excess of contract-specified funding limits as
                 follows:

                 rn      Fixed Fee. Encore Management Corporation billed $585,570, or $32,730 more
                         than the $552,840 contract amount.
              Total Funding. Encore Management Corporation billed $9,871,413, or $200,725
              more than the $9,670,688 contract amount.

              Temporary Help. Encore Management Corporation billed $920,551, or
              $38 1,655 more than the $538,896 contract amount.

       Encore Management Corporation's chief financial officer (CFO) stated that the firm was
       aware that billings exceeded the contract ceiling, and that they discussed this matter with
       the contracting officer. The CFO also stated that Contract Modification No. 47 indicates
       that "the Estimated Cost and Fixed Fee require slight upward adjustments to accurately
       reflect changes made in Modifications 5, 15, 16, 19,20 and 23 ."

       We recommend that the Corporation direct Encore Management Corporation to limit
       billed costs to those allowable under applicable contract provisions.

2.     Encore Management Corporation failed to submit its proposed final indirect cost rates to
       the contracting officer as required. Contract Section I. I incorporates Federal Acquisition
       Regulation (FAR) 52.216-7, Allowable Cost and Payment, which states that the
       contractor must submit proposed final indirect cost rates to the contracting officer for
       each of its fiscal years within 90 days of fiscal year end; proposed rates must be based on
       the contractor's actual cost experience for the period. This section further states that
       billing rates may be prospectively or retroactively revised by mutual agreement, at either
       party's request, to prevent substantial overpayment or underpayment. Encore
       Management Corporation representatives stated that they were not aware that they were
       required to submit the indirect cost rate proposals to the Corporation or to adjust indirect
        costs billed. Because Encore Management Corporation did not submit indirect cost rate
       proposals as required, and because it did not revise provisional billing rates, indirect costs
        were overbilled.

       We recommend that the Corporation direct Encore Management Corporation to submit its
       proposed final indirect cost rates as required by the FAR.

3.      As discussed in the Notes to the Schedule of Contract Costs and Schedules B-1 through
        B-15, Encore Management Corporation claimed direct labor, indirect costs, and fee that
        were unallowable and unallocable in accordance with contract terms and conditions and
        the FAR.

        We recommend that the Corporation direct Encore Management Corporation to limit
        claimed costs to those allowable under applicable cost principles and contract provisions.

        We considered the above material instances of noncompliance in forming our opinion on
 whether Encore Management Corporation's costs claimed under the contract for the period July
 25, 1994, through December 31, 1998, are presented fairly, in all material respects, pursuant to
 contract terms and conditions and the FAR. Because of the material instances of noncompliance,
 our opinion on the schedule is qualified.
      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Encore Management Corporation.


                                          COTTON & COMPANY LLP




                                                       7
                                         /Michael W. Gi espie, CPA, CFE
                                                                                    Y LLP
                                            1Iiw11,L. Crn-I-ON,CI?A, CFE, CC,Fhl
CHARLES
      HAWLARI),
             CPA, CFE, ClSA                    h h c r i ~ tW
                                                            ~ . CILLCSIW,
                                                                        CI'A, CFE
MATTHEWH JOHNSON,
                CPA, CCFM                      S.\NUK.A   A. H,WLEI,CPA, CCFh4




                                             February 18,2000


       Inspector General
       Corporation for National and Community Service


           INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL STRUCTURE

              We audited costs claimed by Encore Management Corporation to the Corporation for
       National and Community Service under Contract No. CNCS 94-002 for the period July 25, 1994,
       through December 3 1, 1998, and have issued our report thereon dated February 18, 2000. The
       Corporation awarded Contract No. CNCS 94-002 for the period July 25, 1994, to December 31,
       1998.

               We conducted our audit in accordance with generally accepted auditing standards and
        Government Auditing Standards issued by the Comptroller General of the United States. These
        standards require that we plan and perform the audit to obtain reasonable assurance that the
        financial schedules are free of material misstatement.

                 Encore Management Corporation management is responsible for establishing and
        maintaining an internal control structure. In fulfilling this responsibility, estimates and
        judgments by management are required to assess expected benefits and related costs of internal
        control structure policies and procedures. The objectives of an internal control structure are to
        provide management with reasonable, but not absolute, assurance that assets are safeguarded
        against loss from unauthorized use or disposition, and that transactions are executed in
         accordance with management's authorization and recorded properly to permit the preparation of
         financial schedules in accordance with generally accepted accounting principles. Because of
         inherent limitations in any internal control structure, errors or irregularities may nevertheless
         occur and not be detected. Also, projection of any evaluation of the structure to future periods is
         subject to the risk that procedures may become inadequate because of changes in conditions or
         that the effectiveness of the design and operation of policies and procedures may deteriorate.

               In planning and performing our audit, we obtained an understanding of Encore
        Management Corporation's internal control structure. We obtained an understanding of the
        design of relevant policies and procedures and whether they had been placed in operation, and we
        assessed control risk to determine our auditing procedures for the purpose of expressing an
        opinion on claimed costs and not to provide an opinion on the internal control structure.
        Accordingly, we do not express such an opinion.
        We noted three matters involving the internal control structure and its operation that we
consider reportable conditions under standards established by the American Institute of Certified
Public Accountants. Reportable conditions involve matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control structure that, in our
judgment, could adversely affect an organization's ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial schedules. The
reportable conditions follow.

1.      Encore Management Corporation does not have policies and procedures to adequately
        identify unallowable indirect expenses in accordance with the Federal Acquisitiorz
        Regulation. As shown in Schedules B-1 through B-15, Encore Management Corporation
        claimed unallowable indirect expenses.

        We recommend that the Corporation direct Encore Management Corporation to institute
        policies and procedures to identify unallowable indirect costs.

2.      Encore Management Corporation does not have adequate timekeeping procedures. Its
        employees sometimes used correction fluid to alter timesheets, supervisors did not sign
        all timesheets, and employees and supervisors did not initial all changes. Sound internal
        controls dictate that, at a minimum, employees and supervisors sign all timesheets and
        that timesheet changes be marked through and initialed by the employee and supervisor.

        We recommend that the Corporation direct Encore Management Corporation to require
        supervisors and employees to sign all timesheets, initial all timesheet corrections, and
        prohibit the use of correction fluid.

 3.     Encore Management Corporation did not prepare invoices directly from its accounting
        system. Invoices were supported by Excel spreadsheets and contained errors. Encore
        Management Corporation's CFO stated that its accounting software is not capable of
        generating invoices.

        We recommend that the Corporation direct Encore Management Corporation to prepare
        invoices directly from its accounting system.


         We believe that the matters described above are material weaknesses. A material
 weakness is a reportable condition in which the design or operation of one or more of the specific
 internal control elements does not reduce to a relatively low level the risk that errors or
 irregularities in amounts that would be material in relation to the financial statements being
 audited occur and not be detected within a timely period by employees in the normal course of
 performing their assigned functions. Our consideration of the internal control structure would
 not necessarily disclose all matters in the internal control structure that might be material
 weaknesses under standards established by the American Institute of Certified Public
 Accountants.
      This report is intended solely for the use of the Office of the Inspector General, the
Corporation for National and Community Service, and Encore Management Corporation.


                                          COTTON & COMPANY LLP
        APPENDIX A


THE CORPORATION'S RESPONSE
                                                           CORPORATION
                                                           FOR N A T I O N A L




      MEMORANDUM

      DATE:                 August 3 1,2000

      TO:

      FROM:

      SUBJECT:              OIG Draft Report No. 00-22, Audit of Corporationfor National and
                            Community Service Contract No. CNCS 94-002 with Encore Management
                            Corporation



      We have reviewed the draft Office of the Inspector General (OIG) audit report of the
      Corporation's contract with Encore Management Corporation (Encore) and are concerned
      about the work performed and the conclusions reached in the repoi-t. Our comments are
      based on the limited kformation provided in the report. Of course, we will have to
      review Encore's response to the draft and the specific work performed by OIG and its
      contractor before making any final determinations on the findings included in the report.

       Our concerns relate to the utility of the report to the Corporation in closing out this
       contract. While the repoi-t purports to be an incurred cost audit, and thus sufficient to
       close out the contract, the Corporation will have to perform a significant amount of audit
       work itself to resolve issues in the report. For example, the report states that in some
       instances Encore used incorrect labor categories andlor rates for temporary personnel
       when billing under the contract. The repoi-t then goes on to question all costs claimed for
       these personnel even though the report does not dispute the fact that the government
       received the services claimed and that Encore is due equitable compensation under
       procurement law for the work it performed (see page 9).

       Similarly, the report questions all Health & Welfare costs incurred under the contract,
       costs that are allowable under the Federal Acquisition Regulation (FAR). In this case,
       Encore originally claimed the costs as Other Direct Costs (ODCs). In September 1998, in
       response to issues raised by OIG, Encore reclassified these costs to its fringe benefits
       pool (see page 1I ) . However, in this report the auditor is questioning the costs' inclusion
       in the fi-inge benefit pool. Therefore, under the current situation, Encore would not be
       reimbursed for these costs as either indirect or direct costs. If the Corporation were to
       disallow the costs based on OIG's audit report its decision would not be sustained.

        In a previous OIG audit dealing with this contract (OIG report 98-24) the Corporation
        acknowledged that it had made errors administering the Encore contract. Thus, OIG and



NATIONAL SERVICE: G E l l l N G THINGS DONE                                  1201 New York Avenue, N.W. Washington, D.C. 20525
AtneriCoQs   Learn and Serue Anzen'cn   Natiotud Smior Service corps         telephone: 202-606-5000 website: wwwnationahmice.org
its contractor were aware of these issues before the audit began. In our opinion, a fair
and equitable solution would have occurred if the auditor had worked with Encore and
the Corporation's Contracting Officer to resolve these matters during the audit rather than
questioning all costs, including allowable costs, in a report. Such an audit would be of
value to the Cosporation in closing out this and other contracts. Accordingly, the
Cosporation requests that you revisit the work performed and work with the Encore and
the Contracting Officer to resolve these matters prior to issuing this report.

cc:    Harsis Wofford
       Wendy Zenker
       Bill Anderson
       Peg Rosenberry
       Simon Woodard
       Wilsie Minor
       Dean Reuter
